                              NATIONAL SCIENCE FOUNDATION
                                   4201 Wilson Boulevard
                                 ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL



Office of Inspector General


MEMORANDUM

Date: March 4, 2010

To:           Mary F. Santonastasso, Director
              Division of Institution and Award Support

              Karen Tiplady, Director
              Division of Grants and Agreements

Thru:         Jannifer Jenkins
              Senior Audit Manager

From:         Billy McCain
              Audit Manager

Subject:      Audit Report No. OIG-10-1-007
              NEES Consortium, Inc.


Attached is the final audit report, prepared by Mayer Hoffman McCann P.C., an independent
public accounting firm, on the audit of NSF Award Number CMMI-0402490 awarded to NEES
Consortium, Inc. (NEESinc). The audit covers NSF-funded costs claimed from October 1, 2004
to December 31, 2008, aggregating to approximately                 of NSF direct funded costs.
NEESinc was selected for audit because of the high dollar value of the NSF award; the
collaborative nature of the award; the significant issues identified in the results of NSF’s
monitoring site visit in March 2005 and NSF’s Total Business System Review (TBSR) of
NEESinc in May 2006, along with NSF officials’ dissatisfaction with NEESinc’s programmatic
progress and NSF’s subsequent decision to phase-out and re-compete the award.

Overall the auditors determined that the costs claimed by NEESinc and its subawardees under
NSF award number CMMI-0402490 appear fairly stated and are allowable, allocable and
reasonable for the NSF award. In addition, the majority of the recommendations made in NSF’s
prior reviews had been addressed. The auditors identified three compliance and internal control
deficiencies in NEESinc’s financial management practice that we are reporting to NSF to make
them aware of in regards to NEESinc’s fiscal operations. Specifically:

   •    Although NEESinc did some monitoring of its subaward costs charged to NSF award
       number CMMI-0402490, which included nineteen subawards amounting to
                 of the total costs charged to the NSF award (of which                     were
       equipment costs), NEESinc’s fiscal monitoring process to a great extent relies on the
       controls and self-assessments made by its subawardees to ensure that the subaward costs
       claimed are reasonable, allowable and allocable to its NSF award, and that equipment and
       property purchased with NSF funds are properly tracked and safeguarded. This condition
       was also noted prior audits and NSF management reviews. Therefore, we performed
       additional audit tests at four of the nineteen subawardees to validate subaward costs
       claimed and ensure that equipment was properly tracked and safeguarded. We
       determined that one subawardee purchased equipment for the NEESinc Program but did
       not accurately record the equipment in its inventory system. Although there were no
       questioned costs as a result of this condition that was subsequently corrected during our
       audit, additional required routine subaward monitoring could prevent or identify any
       potential or actual problems or errors in the subawardees’ inventory records.


   •   NEESinc did not have an adequate internal control process for documenting the review
       and approval of fringe benefit and indirect cost allocations, cash drawdowns, and, Federal
       financial reconciliation and reporting. Although NEESinc appears to have implemented a
       process to adequately perform these functions and properly segregated these duties, there
       is no evidence or documentation of the reviews and approvals being performed by
       NEESinc personnel. We did not find any exceptions or questioned costs from our testing
       of these processes. However, if adequate internal controls are not established to ensure
       that the review and approval of these processes are taking place, NSF funds may not be
       properly accounted for and reported, and also could be subject to mismanagement.

   •   NEESinc did not have written policies and procedures on employee timekeeping and
       labor cost distributions, as well as participant support costs. Although NEESinc has
       proper practices in place to adequately perform these functions, these practices were not
       detailed in writing. This finding was also identified in prior NSF management reviews.
       We did not find any exceptions or questioned costs from our tests of labor costs and
       participant support costs. However, without written policy and procedures, established
       controls, policies and procedures may not be clearly and effectively communicated to and
       followed by all levels of employees, particularly when there is employee or management
       turnover.

NEESinc, in its response to the draft report dated February 24, 2010, disagreed with the three
findings and stated that, while there are areas of improvement in its subaward monitoring system,
many of the prior recommendations made by NSF were mostly implemented or being
implemented. NEESinc also stated that it believes it has sufficient compensating controls in
place to overcome the deficiencies identified in this report, which is further evidenced in that no
questioned costs were identified. NEESinc’s response is included in its entirely in Appendix A.


                                                2
We believe that NEESinc’s internal control over subaward monitoring is a material weakness in
that those costs represent 86% of the costs claimed by NEESinc and that NEESinc’s controls
over subawardees were not effective or fully implemented. We also agree that the processes that
NEESinc verbally described over management review, employee timekeeping, labor cost
allocations and participant support costs appear adequate, but they were not always evidenced in
writing or incorporated in written policies and procedures, as required in NEESinc’s federal
award conditions.

Since NEESinc will be dissolved and will not be directed to correct the compliance and internal
control deficiencies identified from our audit, we do not make any recommendations to NEESinc
for the findings identified. However, we believe the same deficiencies, if existing at the entity to
be managing the NEES Project or at any newly established NSF awardee, could adversely affect
NSF awards in the future. Therefore, we made several suggestions to NSF (see Appendix C –
Other Matters), which we feel would enhance NSF’s pre-award process and overall award
portfolio management process.

We are providing a copy of this memorandum to the Division Director, Deputy Director, and
Program Director in the Division of Civil, Mechanical, and Manufacturing Innovation
(ENG/CMMI).

OIG Oversight of Audit

To fulfill our responsibilities under Government Auditing Standards, the Office of Inspector
General:

   •   Reviewed Mayer Hoffman McCann’s approach and planning of the audit;

   •   Evaluated the qualifications and independence of the auditors;

   •   Monitored the progress of the audit at key points;

   •   Coordinated periodic meetings with Mayer Hoffman McCann and NSF officials, as
       necessary, to discuss audit progress, findings, and recommendations;

   •   Reviewed the audit report, prepared by Mayer Hoffman McCann to ensure compliance with
       Government Auditing Standards; and

   •   Coordinated issuance of the audit report.

Mayer Hoffman McCann is responsible for the attached auditor’s report on NEESinc and the
conclusions expressed in the report. We do not express any opinion on the Schedule of Award
Cost, internal control, or conclusions on compliance with laws and regulations.

We thank your staff for the assistance that was extended to our auditors during this audit. If you
have any questions regarding this report, please contact me at 703-292-4989.


                                                   3
Attachment

cc:   Dr. Steven McKnight, Division Director, ENG/CMMI
      Dr. George Hazelrigg, Deputy Division Director, ENG/CMMI
      Dr. Joy Pauschke, Program Director, ENG/CMMI




                                            4
         NEES CONSORTIUM, INC.
              400 F STREET
         DAVIS, CALIFORNIA 95616

      NATIONAL SCIENCE FOUNDATION
       AWARD NUMBER CMMI-0402490

FINANCIAL AUDIT OF FINANCIAL SCHEDULES AND
      INDEPENDENT AUDITORS’ REPORT
 FROM OCTOBER 1, 2004 TO DECEMBER 31, 2008




                         MAYER HOFFMAN McCANN P.C.
                         Conrad Government Services Division
                         Certified Public Accountants
                         2301 Dupont Drive, Suite 200
                         Irvine, California 92612
                                    EXECUTIVE SUMMARY

An audit was performed on                          in costs claimed as reported on the December
31, 2008 Federal Financial Report ( FFR) submitted t o NSF by NEES C onsortium, I nc.
(NEESinc) on NSF award number CMMI-0402490. Our purpose was to determine whether the
costs claimed by NEESinc and its subawardees for the NSF award appear fairly stated in the
Schedule of A ward C osts; NEESinc’s financial co mpliance and i nternal co ntrols provided
NEESinc the abi lity to p roperly adm inister, acco unt for and m anage i ts NSF award; N EESinc
adequately monitors its subawards; and NEESinc implemented prior NSF review
recommendations.

NEESinc is a non-profit organization that manages, operates and maintains the national George
E. Brown Jr. Network for Earthquake Engineering Simulation (NEES) Project. NEESinc
functions as the coordinator of all NEES financial administration and is responsible for operating
and coordinating the NEES network’s activities at the 15 large-scale experimental sites and
collaborating with v arious organizations and ot her i nterested parties working together on a
common initiative. Originally, NEESinc was awarded approximately $107 million under award
number CMMI-0402490 from October 1, 2004 through September 30, 2009, with an option to
extend the award through 2014. However, in November 2007, NSF decided not to extend, but
instead to reduce t he award t o approximately $95 million and pr ovide the award to another
entity. NEESinc’s phase-out per iod be gan on January 1, 2008. After t he phase -out per iod,
NEESinc will be dissolved.




We determined that the costs claimed by NEESinc and its subawardees under the NSF award
appear fairly stated and are allowable, allocable and reasonable for the NSF award. In addition,
the m ajority of the r ecommendations made i n N SF’s prior r eviews had been addr essed.
However, w e not ed three compliance and i nternal co ntrol deficiencies in NEESinc’s financial
management practice that we are reporting to NSF to ensure that those deficiencies do not exist
in the subsequent awardee’s operations. Specifically:

   •   Although N EESinc did s ome monitoring o f i ts s ubaward co sts charged to N SF aw ard
       number CMMI-0402490, which included nineteen subawards amounting to
             of the total costs charged to the NSF award (of which               were equipment
       costs), NEESinc’s fiscal monitoring process to a great extent relies on the controls and
       self-assessments made by its subawardees to ensure that the subaward costs claimed
       are r easonable, al lowable and al locable t o i ts NSF a ward, and t hat e quipment and
       property pur chased w ith N SF f unds ar e p roperly t racked and sa feguarded. This
       condition was also not ed pr ior audi ts and N SF management r eviews. Therefore, w e
       performed addi tional audi t t ests at four o f the ni neteen su bawardees to v alidate
       subaward co sts claimed and ensure that e quipment w as properly tracked an d
       safeguarded. We de termined that o ne su bawardee pur chased equipment for t he
       NEESinc Program but did not accurately record the equipment in its inventory system.
       Although there w ere n o q uestioned co sts as a r esult o f t his condition t hat w as
       subsequently corrected during our audit, additional required routine subaward monitoring
       could prevent or identify any potential or actual problems or errors in the subawardees’
       inventory records.


   •   NEESinc did not have an adeq uate internal control process for documenting the review
       and appr oval o f fringe benefit and i ndirect co st al locations, ca sh dr awdowns, and,
       Federal f inancial r econciliation and r eporting. A lthough N EESinc appears to hav e
       implemented a p rocess to adequately perform these functions and properly segregated
       these duties, there is no evidence or documentation of the reviews and approvals being
       performed by NEESinc personnel. We did not find any exceptions or questioned costs
       from our t esting o f these pr ocesses. H owever, i f ade quate i nternal co ntrols are no t
       established to ensure that the review and appr oval of these processes are taking place,
       NSF funds may not be properly accounted for and reported, and also could be subject to
       mismanagement.

   •   NEESinc did not hav e written pol icies and pr ocedures on e mployee t imekeeping and
       labor cost distributions, as well as participant support costs. Although NEESinc has
       proper pr actices in pl ace t o adeq uately per form t hese functions, t hese pr actices were
       not detailed in writing. This finding was also identified in prior NSF management reviews.
       We did no t find any ex ceptions or questioned c osts from ou r tests of l abor co sts and
       participant support costs. However, without written policy and procedures, established
       controls, pol icies and pr ocedures may not be cl early and e ffectively co mmunicated to
       and followed by al l l evels of e mployees, pa rticularly w hen t here i s employee or
       management turnover.

NEESinc, in its response to the draft report dated February 24, 2010, disagreed with the three
findings and stated t hat, w hile t here ar e ar eas of i mprovement i n i ts subaward m onitoring
system, many of the prior recommendations made by NSF were mostly implemented or b eing
implemented. NEESinc al so st ated t hat i t bel ieves it has sufficient co mpensating co ntrols in
place to overcome the deficiencies identified in this report, which is further evidenced in that no
questioned costs were identified. NEESinc’s response is included in its entirely in Appendix A.

We believe that NEESinc’s internal control over subaward monitoring is a material weakness in
that those costs represent 86% of the costs claimed by NEESinc and that NEESinc’s controls
over subawardees were not effective or fully implemented. We also agree that the processes
that N EESinc verbally described ov er m anagement r eview, em ployee t imekeeping, l abor co st
allocations and participant support costs appear adequate, but they were not always evidenced
in writing or incorporated in written policies and procedures, as required in NEESinc’s federal
award conditions.

Since NEESinc will be di ssolved and will not be d irected to correct the compliance and i nternal
control deficiencies identified from our audit, we do not make any recommendations to NEESinc
for the findings identified. However, we believe the same deficiencies, if existing at the entity to
be managing the NEES Project or at any newly established NSF awardee, could adversely
affect N SF aw ards in t he f uture. T herefore, we m ade se veral su ggestions to N SF ( see
Appendix C – Other M atters), w hich we f eel would enhance N SF’s pre-award pr ocess and
overall award portfolio management process.

For a c omplete di scussion of audi t findings, r efer to t he R eport on Internal C ontrol Over
Financial R eporting and on C ompliance and O ther M atters B ased on an A udit o f Fi nancial
Schedules Performed in Accordance with Government Auditing Standards.
                                                 NEES CONSORTIUM, INC.


                                                    TABLE OF CONTENTS

                                                                                                                                                 Page

Executive Summary:

Table of Contents:

Introduction:
    Background ...............................................................................................................................     1
    Audit Objectives, Scope and Methodology ................................................................................                       3

Internal Controls and Compliance:
    Report on Internal Control over Financial Reporting and on Compliance
     and Other Matters Based on an Audit of Financial Schedules Performed
     in Accordance with Government Auditing Standards ...............................................................                              4

Financial Schedules and Supplemental Information:
   Independent Auditors’ Report on Financial Schedule ................................................................                            17
   Schedule A – Schedule of Award Costs (Award No. CMMI-0402490) .......................................                                          19
   Schedule B – Summary Schedule of Awards Audited and Audit Results ...................................                                          20
   Notes to Financial Schedule .....................................................................................................              22

Appendices
   Appendix A – Awardee’s Comments to Report
   Appendix B – Status of Prior Review Findings
   Appendix C – Other Matters
   Appendix D – Exit Conference
INTRODUCTION
BACKGROUND

We audited funds awarded by t he N ational S cience Foundat ion (NSF) to NEES C onsortium,
Inc. ( NEESinc) under aw ard num ber CMMI-0402490 for t he per iod October 1, 2004 to
December 31, 200 8. The award number C MMI-0402490 was effective from October 1, 2 004
through September 30, 2009, with an option to extend the award through 2014. I n November
2007, NSF decided not to extend the award with NEESinc. As such, NEESinc would no longer
manage after award by September 30, 2009. The original award amount was $107 million, with
85 million budgeted for the operating costs of 15 subawardees. The final award amount was
reduced to $95 million due t o ea rly phase -out of t he aw ard. The phase -out pe riod be gan on
January 1, 2008. As of December 31, 2008, award number CMMI-0402490 was the only active
NSF award of NEESinc. After the phase-out period, the management and operations of NEES
Project will be awarded to another entity and NEESinc will be dissolved.

NEESinc, as a Federal awardee, is required to follow the cost principles specified in Office of
Management and B udget ( OMB) C ircular A -122, Cost P rinciples for No n-Profit O rganizations,
and the Federal administrative requirements contained in 2 CFR 215 - Uniform Administrative
Requirements for Grants and A greements with Institutions of Higher Education, Hospitals, and
Other Non-Profit Organizations (OMB Circular A-110 has been incorporated into 2 CFR 215).

NEESinc, located in Davis, California, is a nonprofit corporation under Section 501(c) (3) of the
Internal R evenue C ode. NSF cr eated the Network for E arthquake E ngineering S imulation
(NEES) Project to give researchers the tools to learn about earthquakes and tsunami impacts
on bui ldings, br idges, u tility sy stems and ot her cr itical co mponents of today’s society. The
project consists of (a) NEESinc headquarters, (b) fifteen shared use, state-of-the-art earthquake
engineering ex perimental r esearch si tes (all uni versities), l ocated ac ross t he U .S., and ( c) a n
information technology (IT)/NEESgrid cyberinfrastructure. The mission of the NEES Project is
to enable collaboration and transformative research to reduce seismic risk by providing world-
class community infrastructure. The NEES Project is managed and operated by NEESinc. NSF
awarded the task of setting up the NEESinc to CUREE (The Consortium of Universities for
Research in Earthquake Engineering). In J anuary, 2003, N EES Consortium, Inc. was
incorporated as a non-profit or ganization. NEESinc functions as the co ordinator o f al l N EES
financial administration and is responsible for operating and coordinating the NEES network’s
activities at t he 15 l arge-scale experimental si tes and co llaborating with v arious organizations
and other interested parties working together on a common initiative.

In the first few months of its operations in October, 2004, NEESinc only had one employee who
was the Executive Director. From June 2004 to December 2005, NEESinc’s Board of Directors
appointed a President; developed its own or ganizational i nfrastructure; contracted f or and
constructed its headquarter facilities and co nstruction on those facilities; interviewed ot her
managers; and performed other necessary tasks to start its operations.

According to NEESinc officials, limited guidance was provided by NSF or its Board of Directors
to NE ESinc concerning how t he Feder al administrative and co st standards and r equirements
should be applied to the financial administration of NEESinc at the inception of its operations.
Additional guidance was given in March 2005 when NSF performed a Standard Award
Monitoring Site Visit at NE ESinc and pr ovided various recommendations on i ts program and
fiscal operations. At the time of the NSF monitoring site visit, the NEES mangers had been on
board less than 3 months and the Finance & Business Operations Manager had been on board




                                                   1
for only one week. On December 27, 2005, NSF notified NEESinc that NEESinc had
adequately addressed all of NSF’s concerns raised from the March 2005 visit.

In May 2006, NSF performed a Total Business System Review (TBSR) at NEESinc. The TBSR
identified a si gnificant n umber o f de ficiencies related t o N EESinc’s business operations, and
made approximately eighty-eight recommendations for corrective actions. According to
NEESinc, it greatly welcomed the recommendations from the TBSR because the TBSR
provided N EESinc with valuable guidance and t echnical k nowledge as to ho w t o co nduct t he
financial oper ation and appl y the administrative standards and r equirements to the F ederal
award. N EES r esponded t o t he TBSR i n M arch 2007 and i ndicated t hat appr oximately t wo-
thirds of the eighty-eight recommendations had been already implemented and it had initiated
actions on nearly all the others.

NSF subsequently performed a pr ogrammatic site v isit i n Ju ly 2007 and det ermined that
NEESinc was not making satisfactory programmatic progress in the conduct of NEES
operations under t he aw ard. N EESinc was advised by N SF t o i mplement a co rrective act ion
plan t o correct the de ficiencies noted i n t he site v isit report. In N ovember 2007, N SF
determined that the response from NEESinc did not provide a basis for continued support of the
award under the originally planned schedule and funding. As a result of the decision to
terminate t he aw ard, N EESinc began phased-out o f t he aw ard dur ing Fiscal Y ear 2008 and
Fiscal Y ear 2009 with t he phase -out per iod st arting on Ja nuary 1, 200 8. T he aw ard am ount
was reduced to $95 million due to early phase-out of the award. After the phase-out period, the
management and operations of NEESinc will be awarded to another entity and NEESinc will be
dissolved.




Description of the NSF award we audited is as follows:

Award CMMI-0402490 – NEES Consortium O perations.                        NSF aw arded Cooperative
Agreement Award No. CMMI-0402490 to NEESinc for the period October 1, 2004 to September
30, 2009 in an original amount of $106,525,942, which was subsequently reduced to
$94,890,581. NEESinc is responsible for managing, operating and maintaining the national
George E. Brown Jr. Network for Earthquake Engineering Simulation (NEES) Project during the
award per iod, which g ives researchers the t ools to l earn about ear thquakes and t sunami
impacts on buildings, bridges, utility systems and other critical components of today’s society.
The Project consists of (a) NEESinc headquarters led by an Executive Director/Chief Executive
Officer, ( b) fifteen sh ared use , st ate-of-the-art e arthquake en gineering e xperimental r esearch
sites (all universities), located across the U.S., and (c) an information technology (IT)/NEESgrid
cyberinfrastructure. The eq uipment si tes and cy berinfrastructure p rovide a use r-friendly,
collaborative, accessible, and data-rich experimental and analytical infrastructure for research,
education, and technology transfer across the earthquake engineering field.

Cumulative di sbursements for aw ard num ber CMMI-0402490 reported t o N SF t hrough
December 31, 2008 were




                                                  2
AUDIT OBJECTIVES, SCOPE AND METHODOLOGY

The objectives of our audit were to:

   1. Determine w hether NEESinc’s system o f i nternal co ntrol ov er ad ministering i ts N SF
      award is adequate to account for and ensu re compliance with applicable OMB Circular
      and NSF award requirements.

   2. Identify and report instances of noncompliance with laws, regulations and the provisions
      of t he a ward agr eements and w eaknesses i n NEESinc’s internal co ntrols over
      compliance and financial r eporting t hat co uld ha ve a di rect and material e ffect on t he
      Schedule of Award Costs (Schedule A) and NEESinc’s ability t o properly administer,
      account for, and manage its NSF award.

   3. Determine and report on whether NEESinc adequately monitors its subawards.

   4. Follow-up on recommendations identified in NSF’s 2005 Standard Award Monitoring Site
      Visit and 2006 Total B usiness System R eview ( TBSR) to de termine i f they ha ve been
      satisfactorily addressed and implemented (see results of follow-up in Appendix B);

   5. Determine and r eport o n w hether t he S chedule of A ward C osts of NEESinc presents
      fairly, in all material respects, the costs claimed on the Federal Financial Report (FFR) in
      conformity with Federal and NSF award terms and conditions.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of A merica, the st andards applicable t o financial audi ts contained in Government
Auditing Standards (2007 Revision) issued by the Comptroller General of the United States, and
the guidance provided in the National Science Foundation OIG Audit Guide (August 2007), as
applicable. These standards and the NSF OIG Audit Guide require that we plan and perform
the audit to obtain reasonable assurance about whether amounts claimed to NSF as presented
in t he Schedule of Award Costs (Schedule A) are free of material misstatements. An audit
includes examining, on a t est basi s, ev idence su pporting t he a mounts and di sclosures in t he
Schedule of Award Costs. An audit also includes assessing the accounting principles used and
the significant estimates made by NEESinc, as well as evaluating the overall financial schedule
presentation. We believe that our audit provides a reasonable basis for our opinion.




                                                3
INTERNAL CONTROLS AND COMPLIANCE
             2301 Dupont Drive, Suite 200
             Irvine, California 92612
             949-474-2020 ph
             949-263-5520 fx
             www.mhm-pc.com



National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


     REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING AND ON
COMPLIANCE AND OTHER MATTERS BASED ON AN AUDIT OF FINANCIAL SCHEDULES
   PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS

We hav e audi ted costs claimed as presented i n t he S chedule of A ward C osts (Schedule A ),
which su mmarizes financial r eports submitted by NEES C onsortium, I nc. ( NEESinc) to t he
National Science Foundation (NSF) for the award and per iod listed below and ha ve issued our
report thereon dated March 1, 2010.

            Award Number                       Award Period                    Audit Period

           CMMI – 0402490                   10/01/04 – 09/30/09            10/01/04 – 12/31/08


We conducted our audit of the Schedule of Award Costs as presented in Schedule A in
accordance w ith auditing s tandards generally accepted i n the United States of America, t he
standards applicable to financial audits contained in Government Auditing Standards, issued by
the Comptroller General of the United States (2007 revision), and t he guidance provided in the
National Science Foundation Audit Guide (August 2007), as applicable.


INTERNAL CONTROL OVER FINANCIAL REPORTING

In pl anning and pe rforming ou r audi t o f t he S chedule of A ward C osts (Schedule A ) for t he
period October 1, 2004 to December 31, 2008, we considered NEESinc’s internal control over
financial r eporting as a basi s for desi gning our audi ting pr ocedures for t he pur pose o f
expressing our opi nion on t he financial sch edule, but no t for the pur pose o f ex pressing an
opinion on t he ef fectiveness of NEESinc’s internal co ntrol ov er f inancial r eporting.
Accordingly, w e do not ex press an opi nion on t he ef fectiveness of NEESinc’s internal co ntrol
over financial reporting.

Our co nsideration o f i nternal control over financial reporting w as for the l imited purpose
described i n t he pr eceding par agraph and w ould not nece ssarily i dentify al l de ficiencies in
internal co ntrol ov er f inancial r eporting that might be si gnificant def iciencies or m aterial
weaknesses. However, as discussed below, we identified certain deficiencies in internal control
over financial reporting that we consider to be significant deficiencies.




                                                 4
A co ntrol deficiency exists when the design or ope ration of a control does not al low
management or em ployees, i n t he nor mal co urse of pe rforming t heir a ssigned functions, to
prevent or detect misstatements in a timely b asis. A significant de ficiency is a co ntrol
deficiency, or co mbination of co ntrol de ficiencies, t hat adv ersely af fects t he ent ity’s ability to
initiate, authorize, record, process, or report financial data reliably in accordance with generally
accepted accounting principles such that there is more than a remote likelihood that a
misstatement of NEESinc’s financial sch edule t hat i s more t han i nconsequential w ill not be
prevented or de tected b y NEESinc’s internal co ntrol. We consider the deficiencies described
below as Finding Nos. 1 through 3 to be significant deficiencies in internal control over financial
reporting.

A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a r emote likelihood that a material misstatement of the financial schedules
will not be prevented or detected by NEESinc’s internal control.

Our co nsideration o f i nternal control over financial reporting w as for the l imited pur pose
described in the first paragraph of this section and would not necessarily identify all deficiencies
in t he i nternal co ntrol t hat m ight be si gnificant de ficiencies and, acco rdingly, w ould not
necessarily disclose all significant deficiencies that are also considered to be material
weaknesses. However, w e bel ieve that Fi nding N o. 1 as described bel ow i s also a material
weakness.


COMPLIANCE AND OTHER MATTERS

As part of obtaining reasonable assurance about whether NEESinc’s financial schedule is free
of material misstatement, we performed tests of NEESinc’s compliance with certain provisions
of applicable laws, regulations, and NSF award terms and conditions, noncompliance with which
could have a direct and material effect on the determination of financial schedule amounts.
However, providing an opinion on co mpliance with those provisions was not an objective of our
audit, and a ccordingly, w e do not ex press such an opi nion. The r esults of our t ests of
compliance disclosed three instances of noncompliance that are required to be r eported under
Government Auditing Standards and the National Science Foundation OIG Audit Guide and are
described in Finding Nos. 1 through 3 below.

NEESinc’s response to the findings identified in our audit is described below after each finding
and i s included i n i ts entirely i n A ppendix A . We di d not audi t N EESinc’s response and,
accordingly, we express no opinion on it.

Since NEESinc will be di ssolved and will not be d irected to correct the compliance and internal
control deficiencies identified from our audit, we do not make any recommendations to NEESinc
for the findings identified. However, we believe the same deficiencies, if existing at the entity to
be managing the NEES Project or at any newly established NSF awardee, could adversely
affect N SF aw ards in t he f uture. T herefore, we m ade se veral su ggestions to N SF ( see
Appendix C – Other M atters), w hich we f eel would enhance N SF’s pre-award pr ocess and
overall award portfolio management process.




                                                    5
FINDINGS AND RECOMMENDATIONS

Finding 1. Fiscal Monitoring of Subawardees Could be Improved

Although NEESinc did some monitoring of its subaward costs charged to NSF award number
CMMI-0402490, w hich i ncluded nineteen subawards amounting t o                            of t he
total costs charged to the NSF award (of which                 were equipment costs), the fiscal
monitoring p rocess w as limited and could be i mproved t o pr ovide greater a ssurance t hat the
subaward co sts claimed ar e r easonable, al lowable and al locable t o i ts NSF aw ard, and t hat
equipment and property purchased with NSF funds are properly tracked and safeguarded. Due
to inadequate personnel resources and personnel with a lack of subaward monitoring
experience and k nowledge, NEESinc to a great ex tent relies on t he co ntrols and se lf-
assessments made by the subawardees to ensure that subaward costs are reasonable,
allowable, and allocable to the NSF award, and that equipment purchased by the subawardees
under the NSF award is properly tracked and safeguarded. This condition was also noted in the
management letter issued by NEESinc’s OMB Circular A-133 auditor for the fiscal year ended
September 30, 2006 , as w ell a s on NSF’s March 2005 Monitoring Site V isit R eport and May
2006 Total B usiness System R eview ( TBSR) o f N EESinc. In or der to validate t he su baward
costs cl aimed and to e nsure t hat e quipment p urchased by t he su bawardees under t he N SF
award is properly tracked and safeguarded, we performed additional audit tests at four of the
nineteen subawardees. A t on e su bawardee, w e f ound that t he e quipment co sts per the
subawardee’s inventory system di d not m atch t he eq uipment co sts claimed per t he
subawardee’s general l edger. A lthough there were no q uestioned co sts as a result o f the
condition that w as subsequently co rrected d uring our audi t, additional r equired r outine
subaward monitoring could prevent or identify any potential or actual problems or errors in the
subawardees’ inventory records.

2 CFR 215, Administrative Requirements for Grants and Agreements with Institutions of Higher
Education, H ospitals, a nd O ther N on-Profit Organizations (OMB Cir cular A -110), S ubpart C ,
§215.51(a), states: “Recipients are responsible for managing and monitoring each project,
program, subaward, function or activity supported by the award. Recipients shall monitor
subawards to ensure subrecipients have met the audit requirements as delineated in §215.26. ”

Further, OMB Circular A-133, Audits of States, Local Governments, and Non-Profit
Organizations, Subpart D , §400(d.3) – Pass-Through E ntity R esponsibilities, st ates: “ A pass -
through ent ity sh all per form t he following f or the Feder al aw ards it m akes:… (3) M onitor t he
activities of subrecipients as necessary to ensure that Federal awards are used for authorized
purposes in compliance with laws, regulations, and the provisions of contracts or grant
agreements and that performance goals are achieved.” Although OMB Circular A-133 does not
specifically st ate t hat an aw ardee i s required t o implement a risk-based su baward monitoring
process, t he OMB C ircular A -133 C ompliance Supplement, P art 3, S ection M , r equires the
auditor to determine whether or not the awardee evaluated its subaward risk to determine the
need for closer monitoring.

The N SF Grant P olicy Manual, S ection 301, al so sp ecifies that grantees are responsible f or
managing and monitoring subaward performance and exercising prudent management of al l
expenditures and actions affecting the grant.

Specifically, we found that NEESinc did not develop and start implementing a f ormal
subawardee monitoring plan until the beg inning o f fiscal y ear 06/07 (October 2006) . This
condition was also noted on the management letter issued by NEESinc’s OMB Circular A-133


                                                  6
auditor for the fiscal year ended September 30, 2006, as well as NSF’s March 2005 Monitoring
Site V isit Re port and the R eport on Total B usiness System R eview of NEESinc performed in
May 2006. Therefore, there w ere no formal s ubaward m onitoring pol ices and pr ocedures
implemented from the inception of the award (October 1, 2004) through the end of fiscal year
05-06 (September 30, 2006).

According to NEESinc officials, at the inception of the award from October 2004 through
January 2005, fiscal monitoring activities on subawardees were limited to review of m onthly
invoices for mathematical accuracy and budgetary compliance. A Director of Contracts
Administration was hired in February 2005 to handle the financial aspect of all subaward
contractual and m onitoring matters. F rom that poi nt o f time, subawardee fiscal m onitoring
activities also included review of subawardees’ OMB Circular A -133 S ingle Audit reports for
internal control and co mpliance findings. On an annual basis, a l etter was sent by the Director
of C ontracts Administration t o each su bawardee r equesting the su bawardee t o ce rtify i f the
subawardee had completed an OMB Circular A-133 Single Audit, and if there were any material
weaknesses, instances of non-compliance and findings related to the subawards from NEESinc.
The Director of Contracts Administration also obtained and reviewed the subawardees’ Single
Audit reports and audited financial statements, and followed up with the subawardees to ensure
that any material weaknesses, instances of non-compliance or findings related to the NEESinc’s
subawards had been properly and t imely resolved. In addition, according to NEESinc officials,
the D irector o f C ontracts Administration m aintained r egular co ntacts with t he su bawardees
through e mails and telephone m eetings i n or der t o obt ain an unde rstanding o f t heir p rogress
and to provide technical assistance, if needed. However, there was no formal written plan or
procedures on su bawardee monitoring and no documentation su pporting the m onitoring
activities performed.

During the period May 2005 through January 2006, NEESinc officials stated that they performed
site v isits at 10 su bawardee locations. T hese site visits were not formal f iscal monitoring
evaluations but more of inquiry and supportive nature. The purpose of the site visits was mainly
to establish better working relationships with the subawardees. These 10 subawardees were
chosen primarily because there were some other events, such as seminars or board meetings,
held concurrently at their locations, not because of any results from particular risk assessments
or anal yses of act ual fiscal co ncerns because no su ch su baward monitoring w ork had been
performed. There was no formal documentation maintained to document these visits, including
the m onitoring pr ocedures performed and t he r esults. These v isits also di d not i nclude an y
review of supporting documentation of the costs claimed on the subaward invoices. After the
initial si te vi sits were per formed at these 10 su bawardees, no additional site v isits were
conducted because N EESinc did not hav e ad equate manpower and resources available to
perform additional site visits at any of the other subawardees.

NSF co nducted a monitoring si te visit at N EESinc in M arch 2005. In its monitoring si te visit
report, NSF commented that NSF did not fully understand the explanation provided by NEESinc
of su bawardee r esponsibilities and ho w t hat t ranslated t o r eimbursement obl igations. In
addition, NSF was uncertain if the subawardees were accounting for subaward costs correctly.
Therefore, NSF r ecommended t hat N EESinc develop and i mplement a written su baward
monitoring plan.

NSF also co nducted a Total B usiness System Review (TBSR) at NE ESinc in May 2006 and
noted that NEESinc was preparing a manual that would detail the monitoring practices that
would be adopted by NEESinc. I n its TBSR report, NSF recommended that NEESinc develop
subaward administration plans for each subaward to document all the planned and performed


                                                 7
subaward monitoring activities. NSF also recommended that NEESinc implement a consortium-
wide, i ntegrated w ork b reakdown st ructure ( WBS) t hat co uld be use d to est ablish a pr oject
baseline, di saggregate subawardee budg ets b y act ivity, and measure work acco mplished
against those budgets. In addition, NSF recommended that NEESinc develop and implement
policies and procedures to monitor property compliance of the subawardees.

Based on t he r ecommendations from the N SF monitoring si te visit i n M arch 2005 and T otal
Business System Review in May 2006, NEESinc developed and st arted implementing a formal
subawardee monitoring plan at the beginning of fiscal year 06-07 (October 1, 2006). Under the
subaward monitoring plan, subawardee monitoring activities include the following:

    -   review of subawardees’ audited financial statements and Single Audit reports;
    -   review of monthly subawardee invoices for mathematical accuracy and budgetary
        compliance;
    -   Monthly and quarterly phone meetings with subawardees’ site managers;
    -   Annual workshop;
    -   Review and approval of Quarterly Financial Reports (QFR) and Quarterly
        Accomplishment Reports (QAR); and
    -   Self-reporting of equipment.

Under the QFR system, invoices of a subawardee in the first and second months of the quarter
are paid immediately after they have been reviewed by NEESinc for mathematical accuracy and
budgetary compliance. For the third invoice of the quarter, the subawardee will not be paid until
the QFR is received, reviewed and appr oved by NEESinc. T he QFR was developed based on
the r ecommendations from NSF’s 2006 TBSR t o adopt a Work Breakdown S tructure ( WBS)
approach and to provide a cl ear linkage between activities and expenditures. U nder the WBS
approach, reporting o f s ubawardee act ivities is broken dow n i nto di fferent act ivity l evels and
financial r eporting ca tegories. E ach su bawardee m ust file a Q FR and a                     Quarterly
Accomplishment Report (QAR) within 45 days after the end of each quarter. The QFR requires
the subawardees to report both “estimated” and actual “invoiced” costs for the quarter in order
to pr ovide l inkage bet ween acco mplishments and ex penditures. O n t he Q FR, a su bawardee
must first p rovide a su mmary o f al l co sts incurred by co st ca tegory unde r t he bud get and by
project ac tivity. T he su bawardee is required to r eport al l det ail per sonnel co sts, Ful l-Time
Equivalents (FTEs), and ot her non -payroll r elated costs claimed. The d etails of t hese costs
must be a greed to the total ex penditures cl aimed for t he quarter. The su bawardee i s also
required t o i temize al l e quipment, pa rticipant su pport co sts and al l ot her co sts that ar e ov er
$1,000 per item or service. Comparisons of budget and actual amounts by cost category are
also required on the QFR.

The QFRs are r eviewed by t he NEESinc Program A dministrator, the D irector o f C ontracts
Administration, and t he Director of Experimental Site Operations (ESO). The Director of ESO
also r eviews each Q FR i n co njunction w ith t he QAR to de termine the r easonableness of the
levels of expenditures. During the QFR review process, no supporting documentation would be
requested from the subawardees to support the amounts reported, unless any unusual items or
charges that appears unreasonable are identified.

In addition, NEESinc started tracking the equipment purchased by the subawardees under the
NSF aw ard and l ocated at the su bawardees in March of 20 07. E very t wo years, an e mail is
sent by the Program Administrator to each subawardee requiring the subawardee to report each
piece o f equipment or asse t pur chased with N SF funds on an I nstitutional R eporting of
Equipment Inventory Form.


                                                    8
Although NEESinc developed and st arted implementing a formal subawardee fiscal monitoring
plan based on NSF’s recommendations from the 2005 monitoring site visit and 2006 T BSR at
the be ginning fiscal y ear 06/ 07 (October 1 , 20 06) to i mprove and st rengthen i ts monitoring
activities, N EESinc has not fully implemented t he m onitoring pl an and t he r ecommendations
from NSF. According to NEESinc’s subawardee monitoring plan, monitoring procedures would
include reviewing financial and performance reports submitted by the subawardees, conducting
site v isits to r eview f inancial r ecords, and maintaining regular co ntacts with su bawardees
through e mail and t elephone to p rovide t echnical assi stance. The frequency and i ntensity o f
monitoring p rocedures should be base d on a “ risk-based” appr oach. H owever, no r isk
assessments or site visits have been conducted in accordance with the monitoring plan on any
subawardees so f ar. Also, N EESinc did not i mplement N SF’s recommendation t o develop a
subaward adm inistration pl an f or each su bawardee t o docu ment the planned and performed
monitoring activities.

Apart from the above, monitoring of equipment and property compliance of subawardees to a
great extent relied on self reporting of subawardees. No measures were in place to ensure that
physical co unt of su bawardee eq uipment has ever been conducted and that each pi ece o f
equipment is properly identified and tagged. Furthermore, neither the subawardee monitoring
plan nor the property policy and procedures of NEESinc addressed equipment nor property
located at t he su bawardee l ocations. In addi tion, t he r eported eq uipment on t he E quipment
Inventory Forms completed in 2007 was not agreed or reconciled to the equipment costs
claimed by t he su bawardees. During our fieldwork, N EESinc just co mpleted another
subawardee eq uipment self-reporting for 2009 and w as in t he pr ocess of co mparing the
reported e quipment i n 2007 to those reported i n 2009, as w ell as reconciling t he reported
equipment to the total equipment costs claimed by each subawardee. Total equipment costs
claimed by the subawardees were about $3.43 million by the end of fiscal year 2008.

Because of this internal control deficiency, we performed additional on-site procedures at four
subawardees to satisfy our selves that t he subaward costs charged by NEESinc to the NSF
grant are accurate, allowable and allocable, and that equipment purchased by the subawardees
are properly tracked and safeguarded. These four subawardees included NEESit, University of
California – San D iego ( UCSD), S tate U niversity of N ew Y ork – Buffalo ( SUNY) and MTS
System. Total amount of subaward costs claimed by NEESinc for these four subawardees as of
December 31, 2008 is about $26 m illion or 40 .53% o f t otal su baward co sts claimed. No
exceptions or questioned costs were noted during our site visits to UCSD, SUNY a nd MTS
System. The following i s a descr iption o f the exceptions we not ed dur ing ou r on -site v isit t o
NEESit.

NEESit

A. Inaccurate Inventory Record

NEESit is part of the San Diego Supercomputer Center, which is a division of the University of
California – San Diego (The University). NEESit is responsible for building and maintaining the
cyberinfrastructure for the N EES pr oject. N EESit t racks all pi eces of equipment pur chased
under t he subaward t hrough the U niversity’s Equipment A sset M anagement S ystem ( EAMS).
During ou r on -site t esting, we r econciled t he t otal am ount o f e quipment co sts claimed to
NEESinc by NEESit to NEESit’s general ledger without revealing any exceptions. However, we
noted that N EESit's equipment co sts per the University's EAMS did not m atch t he e quipment
costs per NEESit’s general l edger. The am ount o f t otal eq uipment co sts per t he U niversity’s



                                                  9
EAMS was              while NEESit’s general ledger reflected the amount as                 Further
examination of the variance revealed the following.

   •   The Fund Manager of NEESit did not close four equipment fabrications as completed in
       the acco unting sy stem. Therefore, t he equipment f abrications were not r eported as
       completed equipment by the Fiscal Specialist of NEESit, who is responsible to keep
       track o f al l e quipment for t he depa rtment, to t he U niversity's Equipment M anagement
       Unit, w hich is r esponsible f or updat ing t he E AMS. A s a r esult, t hose four eq uipment
       fabrications were not r ecorded as equipment i n t he U niversity’s EAMS, and neither
       University of C alifornia Identification (UCID) numbers nor tags were assigned to t he
       completed fabrications.

   •   One piece of equipment was purchased from the University's bookstore but the person
       who pur chased t he i tem did not report the i tem to the Fi scal S pecialist and the
       University's Equipment Management Unit. As a result, the item was not recorded in the
       University’s EAMS, and neither a UCID number nor a tag was assigned to the item.

   •   The costs for four pieces of equipment were booked at the wrong amounts in EAMS by
       the U niversity's Equipment M anagement U nit. As a result, t he e quipment costs p er
       EAMS did not tie to the costs per the general ledger.

   •   The U niversity’s Equipment M anagement U nit er roneously r ecorded an i tem i nto the
       University’s EAMS at t he pur chase or der am ount, i nstead o f t he act ual co st on t he
       invoice. I n addition, the item was actually various materials and supplies not related to
       any equipment f abrication, and sh ould not hav e been r ecorded i nto the U niversity’s
       EAMS as equipment.

After w e had identified the abov e ex ceptions, NEESit i mmediately i nformed the U niversity’s
Equipment M anagement U nit t o co rrect t he er rors and upd ate the U niversity’s EAMS, so t hat
the e quipment co sts in t he U niversity’s EAMS a greed to the total am ount o f e quipment co sts
claimed. T here w ere no q uestioned co sts involved as a r esult of t he a bove exceptions that
were subsequently corrected during our audit.

NEESinc could have improved its subaward monitoring practices by implementing a risk-based
process t o a ssess t he r isk of nonco mpliance and of cl aiming unallowable co sts of its
subawardees to det ermine t he l evel of su bawardee ov ersight nece ssary. T he r isk l evel
assigned during the risk assessment process should determine the need for performing further
steps beyond a review of the OMB Circular A-133 audit report results, such as performing desk
reviews and site visits, as well as requesting and sampling supporting documentation to verify
charges to NSF awards. The rationale used to monitor each subawardee and t he planned
monitoring activities should be docu mented. A formal subawardee monitoring risk assessment
process could better prevent or identify unallowable subaward costs claimed on all NSF awards
and any m isappropriation of e quipment and pr operty.        In addi tion, NEESinc’s current
subawardee monitoring plan does not address specific monitoring steps for equipment located
at the su bawardee l ocations. N EESinc’s subawardee monitoring plan should i nclude
appropriate steps that will be taken to ensure that equipment purchased with NSF funds is
properly tracked and safeguarded.

NEESinc’s fiscal personnel are aware of the subawardee fiscal monitoring requirements of OMB
Circulars A-133 and 2 C FR 215. However, NEESinc is a v ery young ent ity and its fiscal



                                                10
personnel did not have adequate knowledge and experience in subawardee monitoring at the
inception o f its operation. As a result of the NSF monitoring site visit a nd T BRS, NEESinc
personnel have been working diligently to improve its subawardee monitoring system and
activities based on NSF’s recommendations. However, due to inadequate personnel resources
and m anpower, N EESinc was unable t o fully an d e ffectively implement i ts subawardee fiscal
monitoring plan and al l NSF’s recommendations. At the i nception o f the dev elopment o f a
subaward monitoring process, the Director of Contracts Administration was the only personnel
available for su bawardee fiscal monitoring. Therefore, NEESinc relied heavily on t he single
audits and ce rtifications of the subawardees to ensu re t he accu racy of its expenses and
compliance with Federal and NSF provisions. It was not until March 2007 that NEESinc was
able to obtain funds from NSF to hire additional personnel (2 full-time employees, including a
Program Administrator and a Finance/Human Resources Administrator) to assist in subawardee
fiscal m onitoring. Nevertheless, a fter an ex tremely unf avorable t hird y ear which i ncluded t he
NSF si te r eview i n Ju ly of 2007, N EESinc management refocused the resources t o a m odel
more reliant on m onitoring t hrough su bawardee se lf-reporting because N EESinc needed t o
direct the majority of its personnel resources to improve NEES program operations as NSF was
considering discontinuation of the award with NEESinc and the future of NEESinc was obviously
in jeopardy at that time. In November of 2007, NSF indicated it had no intention of renewing
NEESinc’s NSF award.

NEESinc’s and ot her N SF a wardees’ inadequate su bawardee f iscal m onitoring co uld l ead t o
NSF f unds being use d for pur poses other t han t hose i ntended under the N SF aw ard and
equipment pur chased u nder t he N SF a ward not adeq uately acco unted f or and safeguarded.
Thus, inadequate subawardee fiscal monitoring increases the risk that some of the subawardee
costs claimed by NEESinc and other NSF awardees may be unal lowable, unreasonable or not
allocable to the NSF awards and result in the misappropriation of equipment.

Awardee’s Comments

NEESinc disagrees with classifying this finding as a material weakness because there were no
questioned co sts identified from the audi t. H owever, NEESinc explained t hat i t i mplemented
several of the prior NSF recommendations and it agrees that there are areas of improvement
that it could make with regards to its subaward fiscal monitoring system. NEESinc stated that it
was on i ts way t o i mproving i ts monitoring ca pabilities and would have implemented a m ore
robust subaward monitoring system if it continued managing the project. NEESinc also stated
that i t di d not hav e t he r esources to per form physical vi sits to t he su bawardees that had
equipment purchases but it had other procedures in place for the subawardees to self-report its
equipment and NEESinc was in the process of reconciling prior and current property reports that
had been received from the subawardees.

Auditor’s Response

We do not concur that the subaward monitoring finding is not a material weakness in NEESinc’s
internal controls. A material weakness is a significant deficiency, or combination of significant
deficiencies, t hat r esults i n m ore than a r emote likelihood t hat a material m isstatement o f t he
financial schedules will not be pr evented or detected by an ent ity’s internal control. NEESinc’s
existing internal controls would not be able to detect any unallowable costs claimed or
misappropriation of equipment by the subawardees because NEESinc primarily relied on self-
reporting and t he internal controls of t he su bawardees to ensu re t hat the su baward co sts
claimed are reasonable, allowable and allocable to its NSF award, and that equipment and
property purchased with NSF funds are properly tracked and safeguarded. Although there were


                                                  11
no questioned costs identified from our audit, it could be attributed to the subawardees’ internal
controls, but not NEESinc’s own internal controls.

Since NEESinc will be di ssolved and will not be d irected to correct the compliance and internal
control deficiencies identified from our audit, we are not making any recommendations to
NEESinc for this finding. However, we believe the same deficiencies, if existing at the entity to
be managing the NEES Project or at any newly established NSF awardee, could adversely
affect N SF aw ards in t he future. Therefore, we m ade su ggestions to N SF co ncerning this
finding (see A ppendix C – Other M atters), w hich w e f eel w ould enha nce N SF’s pre-award
process and overall award portfolio management process.


Finding 2. Inadequate Control Process for Documenting Management Review

NEESinc did not hav e an ade quate i nternal control p rocess for docu menting t he r eview and
approval of f ringe benefit and i ndirect cost al locations, cash d rawdowns, and , Financial C ash
Transactions R eport/Federal Fi nancial R eport ( FCTR/FFR) reconciliation and r eporting. E ven
though NEESinc appears to have implemented a process to adequately perform these functions
and appears to have properly segregated these duties amongst the Finance/Human Resources
Administrator, an outsourced accountant, and the Treasurer of the Finance Committee, based
on our r eview of NEES’ f inancial processes that w ere verbally e xplained t o us, there i s no
evidence or documentation of the reviews and approvals being performed by these personnel.
This occurred because NEESinc’s policies and procedures did not include adequate provisions
for docu menting the r eview and appr oval of t hese financial f unctions. We did not find any
exceptions or questioned costs from our testing of employee benefits, indirect costs, drawdown
and FFR reporting and reconciliations. H owever, it is important for NSF awardees to establish
and implement an adequat e internal control process to ensure that proper controls are in place
for accu rate acco untability, m anagement, and r eporting o f N SF f unds. T hese co ntrols would
include providing the required guidance for compliance with Federal requirements at the award
date and the nece ssary per sonnel resources to ensu re a pr oper se gregation o f dut ies, and
management and approval process of financial transactions and reports. If adequate internal
controls are not established to ensure that the review and approval of fringe benefit and indirect
cost allocations, cash drawdowns, and, Federal financial reconciliation and r eporting are taking
place, NSF funds may not be properly accounted for and reported, and also could be subject to
mismanagement.

2 CFR 215, Administrative Requirements for Grants and Agreements with Institutions of Higher
Education, H ospitals, a nd O ther N on-Profit Organizations (OMB Cir cular A -110), S ubpart C ,
§215.21(b), states: “Recipients’ financial management systems shall provide for the following …
(2) Records that identify adequately the source and application of funds for federally-sponsored
activities. These records shall contain information pertaining to Federal awards, authorizations,
obligations, unobligated balances, assets, outlays, income and interest.”

NEESinc officials stated t hat NEESinc’s Controller/Chief Fi nancial O fficer i s responsible for
performing the fringe be nefit and i ndirect co st al locations, dr awdowns, as well as FCTR/FFR
reconciliation and r eporting. The al locations, dr awdowns, FC TR/FFR r econciliations and
reports are then reviewed by the Finance/Human Resources Administrator and an outsourced
accountant. The reviewed reconciliations and reports are included in the quarterly financial
reporting package that is forwarded to the Treasurer of the Finance Committee for review. T he
Treasurer of the Finance Committee reviews and approves the quarterly financial package and
presents this information to the Board of Directors on a quarterly basis.


                                                12
Even though N EESinc appears to have an adequate f inancial r eporting process, its written
policies and pr ocedures did not i nclude adeq uate pr ovisions for docu menting the r eview and
approval of these necessary financial functions. In fact, its written policies and procedures only
require that these financial transactions and reports be reviewed by Finance/Human Resources
Administrator and an out sourced ac countant. Therefore, t he Fi nance/Human R esources
Administrator, the outsourced accountant, and the Treasurer were not required to and did not
initial and date the financial documents to evidence their reviews and approval of the financial
transactions and r eports. Written pol icies and pr ocedures for pr oper financial acco untability
and reporting should include provisions for documenting the review and approval of all financial
related activities and reporting related to NSF funds as well as other Federal funds.

According to NE ESinc’s officials, due t o i nadequate personnel resources authorized by N SF,
NEESinc was unable t o est ablish a hi erarchy s ufficient t o al low di fferent l evels of r eview and
authorization, and t o i ndependently per form these nece ssary f inancial f unctions.              The
outsourced accountant and t he Finance/Human R esource Administrator ar e bel ow t he
Controller; therefore, the purpose of the reviews performed by the Finance/Human Resources
Administrator, the outsourced accountant and the Treasurer of the Finance Committee are more
of an administrative and peer r eview nature, i nstead o f au thoritative, t o hel p ensu re that
information concerning those t ransactions is accurate, properly pr epared, and ach ieving a
certain degree of segregation of duties. As such, those reviews were not documented by the
reviewers.

We did not find any exceptions or questioned costs from our tests of employee benefits, indirect
costs, d rawdown and FFR r eporting in that t he co sts claimed appear ed al lowable, al locable,
reasonable and in support of the NSF project. However, without adequate internal control, NSF
funds may not be pr operly accounted f or and reported, and m aybe be subject t o
mismanagement. Adequate personnel resources should be allocated to properly administer
Federal funds to e nsure that controls ar e i n pl ace for proper se gregation of required financial
duties and functions. T hese co ntrols are nece ssary t o pr ovide as surance t hat financial
transactions and r eports ar e p roperly r eviewed and approved, and provide correctly r eported
costs to NSF.

Awardee’s Comments

NEESinc disagrees with the finding and stated that it has met the requirement of 2 CFR 215,
Administrative Requirements for Grants and Agreements with Institutions of Higher Education,
Hospitals, and O ther N on-Profit O rganizations (OMB C ircular A -110), S ubpart C , §215.21(b).
NEESinc stated that it believes it has sufficient compensating controls in place. NEESinc also
stated that there was no reference in the report to explain its NSF indirect cost rate agreements.

Auditor’s Response

We do no t co ncur that N EESinc has met t he r equirement o f 2 C FR 215, Administrative
Requirements for Grants and A greements with Institutions of Higher Education, Hospitals, and
Other N on-Profit O rganizations (OMB C ircular A -110), S ubpart C , §215.21(b) beca use no
authorizations of the significant processes mentioned above were documented. The financial
processes described above were verbally explained to us. Since there was no evidence of
reviews and approvals, we were not able to evidence that such reviews and approvals of the
financial processes had actually occurred and proper segregation of duties did exist. However,
we ag ree that NEESinc’s practices, as they were verbally described to us, were adequate but
should have been ev idenced by dates and signatures or initials of the approving and r eviewing


                                                  13
officials on su pporting documentation and t he pr actices should hav e been docu mented i n
writing i n N EESinc’s policies and pr ocedures, i n or der to be fully co mpliant w ith t he OMB
requirements.

The report al so i dentifies in N ote 2 o f the Notes to t he Fi nancial S chedule the a rrangement
between NSF and NEESinc concerning indirect cost rate agreements and found no exceptions.

Since NEESinc will be di ssolved and will not be d irected to correct the compliance and internal
control deficiencies identified from our audit, we are not making any recommendations to
NEESinc for this finding. However, we believe the same deficiencies, if existing at the entity to
be managing the NEES Project or at any newly established NSF awardee, could adversely
affect N SF aw ards in t he future. Therefore, we m ade su ggestions to N SF co ncerning this
finding (see A ppendix C – Other M atters), w hich w e f eel w ould enha nce N SF’s pre-award
process and overall award portfolio management process.


Finding 3. Lack o f Written P olicies and P rocedures on E mployee Timekeeping, Labor
Cost Allocations and Participant Support Costs

NEESinc did not have written policies and procedures on employee timekeeping and labor cost
distributions, as well as participant su pport co sts. Although N EESinc, according to i ts verbal
explanations and our observations, has established and i mplemented processes to account for
and pr operly r eport e mployee t imekeeping, l abor co st di stributions and par ticipant su pport
costs, th ese processes were not docu mented i nto w ritten pol ices and procedures to better
ensure effective internal controls over the processes. This finding was also identified on NSF’s
March 2005 monitoring site visit report and the May 2006 Total Business System Review report
on N EESinc performed by N SF of ficials. NEESinc officials stated that this occurred beca use
NEESinc did not have adequate personnel resources available in-house to include all
established control activities and practices into written policies and procedures. We did not find
any e xceptions or q uestioned costs from o ur t ests o f participant su pport co sts, as well as
employee t imekeeping and l abor co st al locations. However, w ithout w ritten pol icy and
procedures, established controls, policies and procedures may not be clearly and effectively
communicated to and followed by all levels of employees, particularly when there is employee
or management turnover.

2 CFR 215, Administrative Requirements for Grants and Agreements with Institutions of Higher
Education, H ospitals, a nd O ther N on-Profit Organizations (OMB Cir cular A -110), S ubpart C ,
§215.21(b), states: “Recipients’ financial management systems shall provide for the following …
(6) Written procedures for determining the reasonableness, allocability and allowability of costs
in accordance with the provisions of the applicable Federal cost principles and the terms and
conditions of the award.”

We found that NEESinc has developed and i mplemented adequate processes and practices to
account for and report on employee timekeeping, labor cost distributions and participant support
costs. H owever, t he pr ocesses and practices were not dev eloped into w ritten policies and
procedures thereby establishing internal controls over these processes and practices followed
by N EESinc to pr operly account for and r eport t hese financial t ransactions. The pr ocess in
place for employee timekeeping and labor cost distribution requires that each employee records
all hi s/her t ime w orked and l eave t aken w ithin a pay per iod on an electronic timesheet. T he
employee must separate his/her work time based on the hours spent on each of the NEESinc’s
projects for l abor co st d istribution pur poses. The em ployee’s supervisor will t hen r eview t he


                                                 14
electronic timesheet for accu racy and appr ove i t i n t he el ectronic timekeeping sy stem.
However, this process is not detailed in NEESinc’s existing written policies and procedures.
NEESinc only has a briefly written payroll policy stating that employees must submit approved
time reports but the policy does not explain the methodology that should be used to complete
the time reports to comply with OMB Circular A-122.

At the Total Business System Review (TBSR) of NEESinc in May 2006, NSF determined that
NEESinc’s salaries and w ages expenses were onl y r ecorded as direct e xpenses in t he main
cooperative agreement’s pr oject cost l edger, and em ployee t ime e fforts for ot her N SF grants,
administration, and pai d time off were not separately allocated. Therefore, NSF recommended
that NEESinc revise its timekeeping policies and procedures to comply with the OMB Circular A-
122 - Cost Principles for Non-Profit Organizations. Following NSF’s recommendation, NEESinc
started i mplementing a new em ployee t imekeeping sy stem a t t he be ginning o f October 2006 .
However, during the term of our audit, the new employee timekeeping system, processes and
practices have not been included in the written policies and procedures.

In addi tion, NEESinc did not hav e w ritten pol icy and pr ocedures on par ticipant su pport costs.
According to NEESinc officials, since all participant support costs claimed were travel related,
NEESinc applies the sa me w ritten pol icies and pr ocedures for travel exp enses to par ticipant
support costs. We reviewed the cost ledgers for participant support costs and t ested a sample
of participant support costs claimed, and verified that all participant support costs claimed were
travel related. Also, NEESinc categorizes a travel e xpense as participant support cost onl y
when an individual (non-employee) incurs travel costs to attend a NEESinc hosted workshop,
seminar or event. I f the host of an act ivity or event is not NEESinc, the travel cost incurred by
the i ndividual is categorized as regular travel co sts. At the M arch 2005 monitoring si te visit,
NSF determined that NEESinc did not have a formal policy on par ticipant support costs. A s a
result, NSF recommended that NEESinc develop participant support policy and procedures to
exclude indirect co sts on par ticipant su pport co sts. However, the r ecommendation has not
been implemented by NEESinc.

NEESinc advised that i t d id not hav e adeq uate personnel resources available in-house t o
develop and implement effective internal control practices where written policies and procedures
related to employee timekeeping, labor cost distributions, and participant support costs could be
included as part of its internal control st ructure. NEESinc also f elt that since it is a very ne w
NSF aw ardee and y oung en tity, it was in t he p rocess of l earning and i mproving i ts financial
management sy stem. I n t he past y ears, NSF per formed different si te visits and r eviews at
NEESinc, and provided numerous recommendations to NEESinc to improve its financial
management system. NEESinc has been working diligently to follow and implement those NSF
recommendations. H owever, at t he sa me t ime, since N EESinc did not hav e adeq uate
resources aut horized by N SF, N EESinc was unable t o fully i mplement al l N SF
recommendations and the majority of its resources and efforts had been placed in the
recommendations of higher priority.

We did not find any exceptions or questioned costs from our tests of participant support costs,
as well as employee timekeeping and labor cost allocation. However, it is important to have the
necessary per sonnel r esources in pl ace t o est ablish and implement e ffective written po licies
and procedures for all Federal award processes and practices. This is needed to establish an
effective system of internal controls to ensure that proper controls are in place f or accurate
accountability, management, and reporting of NSF funds. This is particularly important where,
without written policies and procedures, established controls may not be cl early and ef fectively
communicated t o and c omplied with by per sonnel r esponsible for t he approval and r eporting


                                                15
functions, particularly when there is employee or management turnover. If established controls
are not written, implemented and functioning a s intended, NSF funds may not be p roperly
accounted for and reported, and also maybe subject to mismanagement.

Awardee’s Comments

NEESinc disagrees with t he f inding because NEESinc does not bel ieve t hat t he f inding is
applicable to 2 CFR 215, Administrative Requirements for Grants and Agreements with
Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations (OMB Circular
A-110), S ubpart C , §215.21(b) (6). N EESinc stated that i t believes it has sufficient
compensating controls in place because there were no exceptions or questioned costs identified
from the audit.

Auditor’s Response

Although t here were no exceptions or questioned costs identified from our audit, we do not
concur that 2 C FR 215, Administrative Requirements for Grants and Agreements with
Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations (OMB Circular
A-110), S ubpart C , §215.21(b) (6) does not a pply. T he A dministrative R equirements clearly
requires that r ecipients of Federal f unds must hav e written procedures f or determining the
reasonableness, al locability and al lowability of c osts in acco rdance w ith t he pr ovisions of the
applicable Feder al co st pr inciples and t he t erms and co nditions of t he aw ard. I n addi tion,
information and co mmunication i s one of the key co mponents of an e ntity’s internal co ntrol
system. Without written policies and procedures, established controls may not be clearly and
effectively communicated to and complied with by personnel responsible for the approval and
reporting functions, particularly when there is employee or management turnover.

Since NEESinc will be di ssolved and will not be d irected to correct the compliance and internal
control deficiencies identified from our audit, we are not making any recommendations to
NEESinc for this finding. However, we believe the same deficiencies, if existing at the entity to
be managing the NEES Project or at any newly established NSF awardee, could adversely
affect N SF aw ards in t he future. Therefore, we m ade su ggestions to N SF co ncerning this
finding (see A ppendix C – Other M atters), w hich w e f eel w ould enha nce N SF’s pre-award
process and overall award portfolio management process.

This report is intended solely for the information and use of NEESinc’s management, the
National Science Foundation, the Office of Management and B udget, and the Congress of the
United States and is not intended to be, and should not be used by anyone other than these
specified parties.




Mayer Hoffman McCann P.C.
Conrad Government Services Division
Irvine, California
March 1, 2010




                                                 16
 FINANCIAL SCHEDULES AND
SUPPLEMENTAL INFORMATION
             2301 Dupont Drive, Suite 200
             Irvine, California 92612
             949-474-2020 ph
             949-263-5520 fx
             www.mhm-pc.com



National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


             INDEPENDENT AUDITORS’ REPORT ON FINANCIAL SCHEDULE

We have audited the costs claimed by NEES Consortium, Inc. (NEESinc) to the National
Science Foundat ion ( NSF) on the Fede ral Fi nancial R eports (FFRs) for t he N SF aw ard l isted
below. T he FFR s, as pr esented i n t he S chedule of A ward C osts (Schedule A ), ar e the
responsibility of NEESinc’s management. O ur responsibility i s to e xpress an opi nion on t he
Schedule of Award Costs (Schedule A) based on our audit.

            Award Number                       Award Period                   Audit Period

            CMMI-0402490                    10/01/04 – 09/30/09           10/01/04 – 12/31/08


We conducted our audit in accordance with auditing standards generally accepted in the United
States of A merica, t he st andards applicable t o f inancial audi ts contained i n Government
Auditing Standards, issued by the Comptroller General of the United States (2007 revision), and
the guidance provided in the National Science Foundation OIG Audit Guide (August 2007), as
applicable. These st andards and t he National S cience Foundat ion OIG Audit G uide, r equire
that we plan and perform the audit to obtain reasonable assurance that the amounts claimed to
NSF as presented i n the S chedule of A ward C osts (Schedule A ) ar e free o f material
misstatement. A n audit includes examining, on a test basis, evidence supporting the amounts
and disclosures in the Schedule of Award Costs (Schedule A). An audit also includes assessing
the accounting principles used and t he significant estimates made by NEESinc’s management,
as well as evaluating the overall financial schedule presentation. We believe our audit provides
a reasonable basis for our opinion.

In our opinion, the Schedule of Award Costs (Schedule A) referred to above presents fairly, in
all m aterial r espects, t he co sts claimed on t he FFR s for t he per iod October 1, 200 4 to
December 31, 2008 in conformity with the provisions of the National Science Foundation OIG
Audit Guide, NSF Grant Policy Manual, terms and conditions of the NSF award and on the basis
of accounting described in the Notes to the Financial Schedule, which is a comprehensive basis
of acco unting ot her t han g enerally acce pted ac counting pr inciples. These sch edules are no t




                                                17
intended t o be a co mplete pr esentation o f financial posi tion of NEESinc in co nformity w ith
accounting principles generally accepted in the United States of America.

In acco rdance w ith Government A uditing S tandards, and guidance pr ovided in t he National
Science Foundation OIG Audit Guide, we have also issued a report dated March 1, 2010, on
our consideration of NEESinc’s internal control over financial reporting and our tests of
NEESinc’s compliance with certain provisions of laws, regulations, and NSF award terms and
conditions and other matters. The purpose of that report is to describe the scope of our testing
over internal control over financial reporting and compliance and the results of that testing, and
not to provide an opinion on the internal control over financial reporting or on compliance. That
report i s an i ntegral par t o f an audi t per formed i n acco rdance with Government A uditing
Standards and should be read in conjunction with this report in considering the results of our
audit.




Mayer Hoffman McCann P.C.
Conrad Government Services Division
Irvine, California
March 1, 2010




                                               18
                                                                                                               SCHEDULE A

                                              NEES CONSORTIUM, INC.
                              National Science Foundation Award Number CMMI-0402490
                                               Schedule of Award Costs
                                        October 1, 2004 to December 31, 2008
                                                       Interim




                                                                                    Claimed
                                  Approved      Claimed       Reclassification     Costs After      Questioned    Schedule
       Cost Category               Budget       Costs (A)         of Costs       Reclassification      Costs      Reference
Direct costs:
   Salaries and wages         $                                              -                                -
   Fringe benefits                                                           -                                -
   Equipment                                                                 -                                -
   Travel                                                                    -                                -
   Participant support                                                       -                                -
   Other direct costs:
      Material and supplies                                                  -                                -
      Publication costs                                                      -                                -
      Consultant services                                                    -                                -
      Computer services                                                      -                                -
      Subawards                                                              -                                -
      Other direct costs                                                     -                                -

        Total direct costs                                                   -                                -

Indirect costs                                                               -                                -

        Total                 $                                              -                                -




  (A) - The total claimed costs agrees with the total expenditures reported by NEES Consortium, Inc. on the
  Federal Financial Report as of the quarter ended December 31, 2008. Claimed costs reported above are
  based on the cost ledgers prepared by NEES Consortium, Inc. from NEES Consortium, Inc.'s books of
  accounts.




                                  See accompanying Notes to Financial Schedule

                                                        19
                                                                          SCHEDULE B


                           NEES CONSORTIUM, INC.
                Summary Schedule of Award Audited and Audit Results
                   From October 1, 2004 to December 31, 2008


Summary of Cooperative Agreement Audited

     Cooperative Agreement Number         Award Period               Audit Period
            CMMI-0402490                10/01/04 – 09/30/09       10/01/04 – 12/31/08

    Award Number      Type of Award                     Award Description
    CMMI-0402490       Cooperative      This award is a five-year project for NEESinc to
                        Agreement       manage and operate Network for Earthquake
                                        Engineering Simulation (NEES). NEESinc
                                        functions as the coordinator of all NEES
                                        financial administration and is responsible for
                                        operating and coordinating the NEES network’s
                                        activities at the large-scale experimental sites
                                        and collaborating with various organizations
                                        and other interest parties.



Summary of Questioned and Unsupported Costs

                                        Claimed       Questioned      Unsupported
    Award Number     Award Budget        Costs          Costs            Costs
   CMMI-0402490      $ 94,890,581                             -                -
        Total        $ 94,890,581                             -                -




                                        20
                                                                             SCHEDULE B


                              NEES CONSORTIUM, INC.
                   Summary Schedule of Award Audited and Audit Results
                      From October 1, 2004 to December 31, 2008

                                        (Continued)


Summary of Non-Compliance and Internal Control Findings

                                                                      Amount of         Amount of
                         Non-Compliance                               Questioned         Claimed/
                              and/or        Significant    Material      Costs       Incurred Costs
        Findings         Internal Control   Deficiency    Weakness      Affected         Affected
  Fiscal Monitoring of   Non-Compliance        Yes          Yes       $          -    $
   Subawardees              and Internal
   Could be Improved          Control

  nadequate Control      Non-Compliance           Yes        No                 -    $
   Process for             and Internal
   Documenting               Control
   Management
   Review

 Lack of Written         Non-Compliance           Yes        No                 -
  Policies and             and Internal
  Procedures on              Control
  Employee
  Timekeeping and
  Labor Cost
  Allocations, and
  Participant Support
  Costs




                                             21
                                 NEES CONSORTIUM, INC.
                                 Notes to Financial Schedule

                        From October 1, 2004 to December 31, 2008


Note 1: Summary of Significant Accounting Policies

        Accounting Basis
        The accompanying financial schedules have been prepared in conformity with National
        Science Foundation (NSF) instructions, which are based on a comprehensive basis of
        accounting other than generally accepted accounting principles. Schedule A has been
        prepared by NEESinc from t he Federal Financial Reports (FFRs) submitted t o N SF
        and NEESinc’s accounting records. The basis of accounting utilized in preparation of
        these r eports differs from generally acce pted a ccounting pr inciples. The f ollowing
        information summarizes these differences:

         A. Equity
             Under t he terms of t he award, al l f unds not ex pended acco rding t o t he aw ard
             agreement and bud geted at t he end o f t he aw ard per iod ar e to be r eturned t o
             NSF. Therefore, the awardee does not maintain any equity in the award and any
             excess cash received from NSF over final expenditures is due back to NSF.

         B. Inventory
             Minor m aterials and su pplies are ch arged t o expense dur ing t he per iod of
             purchase. As a result, no inventory is recognized for these items in the financial
             schedules.

         C. Equipment

             Equipment i s charged t o ex pense i n t he p eriod dur ing w hich i t i s purchased
             instead of being recognized as an asset and depreciated over its useful life. As a
             result, the expenses reflected in the Schedule of Award Costs include the cost of
             equipment purchased during the period rather than a provision for depreciation.

             Except for aw ards with nonst andard t erms and co nditions, title t o e quipment
             under N SF aw ards vests in t he r ecipient, for us e i n t he pr oject or p rogram for
             which it was acquired, as long as it is needed. The recipient may not encumber
             the pr operty w ithout app roval of the federal aw arding a gency, but may use t he
             equipment for its other federally sponsored activities, when it is no longer needed
             for the original project.

             Equipment purchased with NSF funds is expensed at cost. Accounting principles
             generally accepted in the United States of America require that equipment to be
             capitalized and depreciated over its useful life.




                                               22
                                 NEES CONSORTIUM, INC.
                                 Notes to Financial Schedule

                                         (Continued)


Note 1:   Summary of Significant Accounting Policies (Continued)

          Income Taxes

          NEESinc is a nonpr ofit co rporation under S ection 501( c) ( 3) o f t he U.S. Internal
          Revenue Code and has received rulings from the Internal Revenue Service and t he
          California Franchise Tax Board granting it exemption from income taxes.

          The departure from generally accepted accounting principles allows NSF to properly
          monitor and track actual expenditures incurred by NEESinc. The departure does not
          constitute a material weakness in internal controls.


Note 2: Indirect Cost Rates

                                      Indirect
                                     Cost Rate
                                   For 10/01/06 –
           Award Number              09/30/07*                         Base




            CMMI-0402490

   •




                                              23
APPENDIX A – AWARDEE’S COMMENTS TO
               REPORT
     These examples are representative of the misleading tone of this report. The report as it is currently
     written does not properly reflect the tremendous effort by the Board of Directors, employees of
     NEESinc, as well as an entire community of earthquake engineering professionals. The report did not
     address the enormous levels of activity, the learning curves involved given the nature of the situation,
     and the lack of support and input from NSF on key issues.

     We believe it is important to note that the structure and writing style of this report was significantly
     changed from what was presented at the exit interview. These changes, we believe, lend the report to
     sound overly negative and exaggerate minor issues.

     Finding 1

                 While there are areas of improvement that NEESlnc could make with regards to Subaward
                 Monitoring we disagree with this finding as a material weakness. As this finding states there
                 were "no questioned costs ." The nature of the procedures and extent of Sub award monitoring
                 is very subjective. As shown in Appendix B, NEESinc implemented the vast majority of all NSF
                 recommendations. and was well on its way to improving monitoring capabilities. Management
                 is confident that if NEESinc continued to operate, a more robust subaward monitoring system
                 would have been implemented .

                 With respect to the equipment inventory and purchasing of NEESinc's Subawardees, safeguards
                 were actually put into place. NEESinc staff did not physically visit each of the 16 Subawards that
                 actually had equipment purchases on their invoices and compare tag numbers, as this would
                 have taken one dedicated FTE to perform only this task and spend the majority of their time
                 traveling. A staff addition for this kind of assignment would not have been authorized by NSF.
                 NEESinc simply did not have the resources to do this. Instead, Equipment Inventory sheets were
                 sent to each Subaward Institution's Property Management Division after the 2006 TBSR visit .
                 When the institutions reported on their equipment, the reports were filed, and two years later
                 as required by OMS Circulars, another inventory was requested. These reports were then
                 compared to the first reports (submitted in 2006) and to all equipment reported by the
                 Subawardees on their Quarterly financial Reports. A reconciliation of all years was in process at
                 the time the Inspector General Auditors were visiting NEESinc.

     Finding 2

                 We disagree with the finding and do not see how criteria of 2 CFR 215 Subpart C Section .21b
                 was not met. Per the Committee of Sponsoring Organizations (COSO) Report an Internal Control
                 is " ... a process, effected by an entity's board of directors, management and other personnel,
                 designed to provide reasonable assurance regarding the achievement of objectives ..." NEESinc
                 believes there were sufficient compensating controls in place, as described in this report . We
                 believe this is proven through the conclusion that there were no exceptions or questioned costs.

                 There is no reference in this finding to the fact that NEESinc was only on an Indirect Cost rate for
                 one year of the five-year cooperative agreement. NEESinc had full authorization to direct
                 charge all expenditures to the Cooperative agreement in four out of the five years of operation .
                 This is important to note as it is an example of the startup nature of N EESinc as an entity and
                 that processes were being put in place for the first time. Further, many of the required
                 processes were modified on a frequent basis due to organizational structure and staff changes
                 within the entity.



-
alii ."   F St   t. - "','   A '"5f
                                                        -
                                                        ~    fa ..   j   31 "'S7 &',
                                                                                                    -
APPENDIX B – STATUS OF PRIOR REVIEW
              FINDINGS
                                                                                       APPENDIX B


STATUS OF PRIOR REVIEW FINDINGS

The NSF reports on its monitoring si te visit i n M arch 2005 and on its Total B usiness System
Review of N EESinc in M ay 2006 identified nu merous de ficiencies and r ecommendations in
various programmatic, operational, fiscal and administrative areas. We reviewed those findings
and recommendations relevant to our audit and found that majority of them had been addressed
by NEESinc. The status of those deficiencies and recommendations are as follows.

A. Report on Monitoring Site Visit in March 2005

 1.   NSF recommended that NEESinc develop and implement a written subaward monitoring
      plan that includes: (1) a clear descr iption of allowable costs that can be charged by the
      subawardees, ( 2) v erification and documentation o f how subawardees will a ccount f or
      actual expenses, ( 3) v erification pr ocedures for appr oving v ouchers prior t o payments,
      and (4) on site verification and audit of subaward expenses.
      Status: Unresolved. NEESinc developed a written subaward monitoring plan in fiscal
      year 06/07. However, the plan was not fully implemented. See details at Finding No. 1.

 2.   NSF r ecommended that NEESinc develop participant support policy to include sign-in
      and si gn-out sh eet, per diem pol icy, and pol icy to ex clude i ndirect co sts on par ticipant
      support costs.
      Status: U nresolved. We noted that, although NEESinc has proper pr actices to
      distinguish participant s upport co sts and ex cluding par ticipant su pport co sts from t he
      calculation of i ndirect c osts, no formal w ritten pol icy and pr ocedures on par ticipant
      support costs have been developed. See details at Finding No. 3.

 3.   NSF determined that NEESinc’s accounting system does not provide any internal
      controls for consistency or logic in the input of data. The accounting system also does
      not pr ovide f or har d closes o f fiscal y ears. NSF recommended that N EESinc consider
      upgrading its accounting software.
      Status: Unresolved. According to NEESinc, NEESinc originally planned to purchase new
      accounting so ftware w hen i t r eceived another 5 -year ex tension o f t he N SF aw ard.
      However, since NSF decided to end the award with NEESinc, the plan was cancelled.

 4.   NSF recommended that NEESinc make changes to its chart of accounts to: (1) account
      for unallowable costs separately; (2) record annual meeting expenses to the grant, and
      (3) record fringe benefits into natural accounts.
      Status: R esolved. We r eviewed N EESinc’s chart o f acco unts and not ed t hat se parate
      account string has been set up for unallowable expenses. NEESinc has also set up
      separate accounts to record annual meeting expenses related to the grant. I n addition,
      fringe benefits have been recorded into natural accounts.
                                                                                       APPENDIX B


STATUS OF PRIOR REVIEW FINDINGS

 5.   NSF recommended that NEESinc develop procedures to reconcile Federal Cash
      Transaction Reports (FCTRs) to the cost ledgers and to minimize the time between the
      receipts of funds and disbursement.
      Status: Resolved. We noted that NEESinc has been reconciling FCTRs to the detail cost
      ledgers on a quarterly basis since the quarter ended June 30, 2006. Also, NEESinc has
      developed a written drawdown policy and it is NEESinc’s general practice to perform
      drawdowns based on a reimbursement or as-needed basis.
 6.   NSF recommended that NEESinc has an indirect cost rate methodology in place in fiscal
      year 06/07 because NEESinc charged all administrative costs directly to the award.
      Status: Resolved. NEESinc submitted an indirect cost proposal for fiscal year 06/07 and
      received appr oval f rom N SF f or t he pr oposed i ndirect co st r ate. NEESinc applied t he
      approved rate in fiscal year 06/07.

B. Report on Total Business System Review in May 2006

 1.   NSF r ecommended that N EESinc develop a s ubaward adm inistration pl an f or eac h
      subaward to document all the planned and performed subaward monitoring activities.
      Status: Unresolved. No such plans have been developed by NEESinc. See details at
      Finding No. 1.

 2.   NEESinc has neither d eveloped nor i mplemented pol icies or p rocedures to m onitor
      property co mpliance at the 15 e quipment si tes. A v isit t o t he Un iversity o f Ca lifornia,
      Davis geotechnical centrifuge site was not sufficient to determine if all required property
      controls and safeguards were being followed. NSF observed not only ease of access to
      capitalized equipment i n unsecured areas but also new capitalized equipment w ithout
      required i nventory co ntrol t ags. NSF r ecommended t hat N EESinc develop and
      implement policies and procedures to monitor property compliance of the subawardee.
      Status: Unresolved. No such policies and procedures have been developed and
      implemented by NEESinc. See details at Finding No. 1.
                                                                                     APPENDIX B


STATUS OF PRIOR REVIEW FINDINGS

B. Report on Total Business System Review in May 2006 (Continued)

 3.   NSF det ermined t hat t he r ecorded sa laries and w ages expense, which i ncludes paid
      absences, appeared only as direct expenses in the main cooperative agreement’s project
      cost l edger. Effort for ot her N SF grants, ad ministration, and pai d time o ff a re no t
      separately allocated. NSF det ermined t hat NEESinc should i mmediately beg in tracking
      salaries and wages through its time and e ffort reports to individual cost objectives. NSF
      recommended that NEESinc revise its timekeeping policy and procedures to comply with
      OMB Circular A-122 – Cost P rinciples for Non-Profit Organizations to t rack employee
      time efforts and allocate labor costs.
      Status: Partially resolved. We noted that NEESinc started implementing a new employee
      timekeeping system at the beginning of fiscal year 06/07 to comply with OMB Circular A-
      122. H owever, the practice has not been i ncluded in the written timekeeping policy and
      procedures. See details at Finding No.3.

 4.   NSF r ecommended that N EESinc implement a co nsortium-wide, i ntegrated w ork
      breakdown st ructure ( WBS) t hat co uld be use d t o est ablish a pr oject base line,
      disaggregate subawardee budgets by activity, and measure work accomplished against
      those budgets.
      Status: Resolved. N EESinc started implementing the recommended WBS in fiscal year
      06/07 t hrough t he use of su bawardee Q uarterly Fi nancial Reports and Q uarterly
      Accomplishment Reports.

 5.   During a p rior NSF review conducted March 2005, NEESinc was directed to develop an
      indirect rate methodology and t o implement that methodology effective October 1, 2005.
      However, NEESinc continued to charge all administrative expenses directly to the main
      cooperative agreement. NSF recommended that NEESinc implement an indirect rate
      methodology which is approved by NSF with an effective date retroactive to October 1,
      2006.
      Status: Resolved. NEESinc submitted an indirect cost proposal for fiscal year 06/07 and
      received appr oval f rom N SF f or t he pr oposed i ndirect co st r ate. N EESinc applied t he
      approved rate in fiscal year 06/07.

 6.   NSF recommended that NEESinc start charging direct costs and indirect costs related to
      another NSF award directly to that NSF award in fiscal year 06/07.
      Status: Resolved. We noted that NEESinc started charging direct costs directly to that
      particular NSF award in fiscal year 06/07. NEESinc also charged indirect costs to that
      NSF award based on the approved indirect cost rate in the same fiscal year.
                                                                                      APPENDIX B


STATUS OF PRIOR REVIEW FINDINGS

B. Report on Total Business System Review in May 2006 (Continued)

 7.    NSF r ecommended that N EESinc finalize its accounting and financial pol icies and
       procedures manual, and incorporate information for preparing FCTR and cash requests.
       Status: R esolved. We noted t hat N EESinc has established accounting and f inancial
       policies and procedures manual, as well as written policies and procedures for the
       preparation of FCTRs and cash requests.

 8.    NSF recommended that NEESinc revise its FCTR preparation procedures so that
       information reported on the FCTRs is reconciled to the cost ledgers.
       Status: Resolved. We noted that NEESinc has been reconciling FCTR to the detail cost
       ledgers on a quarterly basis since the quarter ended June 30, 2006. Also, NEESinc has
       developed written procedures on the preparation and reconciliation of FCTRs.

 9.    NSF determined t hat t he Fi nancial A dministrators (i.e., C ontroller an d C onsultant) also
       have per mission t o the FCTR, cash r equest, a nd gr antee E lectronic Funds Transfers
       (EFT) update functions, which prevents effective internal control. NSF recommended
       that N EESinc strengthen t he se gregation o f d uties among FCTR su bmission, ca sh
       drawdown and update of electronic funds transfers.
       Status: Resolved. We noted that NEESinc has assigned more personnel to perform the
       above dut ies. The C ontroller o f N EESinc is responsible for FC TR and dr awdown
       preparation. The Finance/Human Resources Administrator assists the Controller in the
       preparation of drawdowns. An outsourced accountant is responsible to review f inancial
       reporting documents and prepare bank reconciliations.

 10.   NSF r ecommended t hat N EESinc include the asset co ntrol tag nu mber i n t he i nternal
       property files.
       Status: R esolved. We reviewed N EESinc’s i nventory r ecords and not ed t hat t he t ag
       number o f each pi ece of e quipment o r p roperty has been r ecorded i n t he i nventory
       records.

 11.   NSF recommended that NEESinc develop a clear internal property capitalization policy.
       Status: R esolved. N EESinc has developed a written ca pitalization pol icy which i s
       consistent with NSF’s guidelines.
APPENDIX C – OTHER MATTERS
                                                                                       APPENDIX C


OTHER MATTERS

During the course of our audit, we noticed several items that we wanted to bring to NSF’s
attention that we f eel would enhance N SF’s pre-award pr ocess and ov erall a ward por tfolio
management p rocess. Even t hough w e di d not r eview or audi t N SF’s aw ard m anagement
process, we f eel t hat bringing t hese i tems to NSF’s attention w ould si gnificantly pr ovide
reasonable assu rance that al l N SF a wardee cl aimed co sts related t o N SF a wards are
reasonable, allowable and allocable to NSF awards; and, that the necessary policies and
procedures ar e i n pl ace t o i mplement an e ffective i nternal co ntrol system to sa feguard N SF’s
assets and interests.

NSF’s total award portfolio includes many awards that are collaborative in nature like NEESinc
and includes many subawards that are essential to the fiscal and programmatic success of
NSF’s programs and aw ards. We det ermined that N EESinc did not hav e an adeq uate fiscal
subaward monitoring program during the term of its award. This is significant because NEESinc
was responsible for monitoring nineteen subawards amounting to                          of the total
costs charged to the NSF award (of which                   were equipment costs). This condition
was also noted in the management letter issued by NEESinc’s OMB Circular A-133 auditor for
the fiscal y ear ended S eptember 30 , 2006 , as well as on N SF’s March 2005 M onitoring S ite
Visit Report and M ay 2006 Total Business System Review (TBSR) of NEESinc. T his problem
continued dur ing t he c ourse o f t he aw ard de spite N SF’s efforts and r ecommendations to
improve NEESinc’s subaward monitoring process. To deter or prevent the same problems from
occurring on new a wardees, we su ggest that NSF ensu re t hat these aw ardees, esp ecially
awardees with si gnificant subawards, hav e a w ell-established risk-based su bawardee
monitoring pl an prior t o aw ard. T hat pl an sh ould ensu re t hat ade quate su bawardee f iscal
monitoring be per formed, as necessary, t o pr ovide r easonable assu rance t hat t he su baward
costs claimed a re r easonable, al lowable and al locable t o i ts NSF aw ard, and that e quipment
and property purchased with NSF funds are properly tracked and safeguarded.

NEESinc did not hav e an ade quate i nternal control p rocess for doc umenting its financial
management review and appr oval process. Its existing policies and procedures did not include
adequate provisions for documenting t he r eview and approval of r equired f inancial f unctions
including f ringe benefits, indirect co st al locations, ca sh dr awdowns, and Fi nancial C ash
Transactions Report/Federal Financial Report (FCTR/FFR) reconciliation and reporting. The
inclusion of su ch p rovisions is important bec ause i f ade quate i nternal co ntrols are no t
established by al l a wardees to ensu re t he acc uracy and r eliability of t he f inancial r eporting
process NSF funds may not be pr operly accounted for and r eported, and also could be subject
to m ismanagement. A ll N SF a wardees should est ablish and i mplement an adeq uate i nternal
control pr ocess to ens ure t hat p roper co ntrols are i n pl ace f or ac curate acco untability,
management, and reporting of NSF funds. To deter or prevent the same problems from
occurring on new aw ardees, we su ggest t hat N SF ensu re t hat these aw ardees have an
adequate i nternal co ntrol pr ocess for docu menting m anagement r eviews and appr ovals of
financial transactions and r eports. T hese co ntrols would include pr oviding t he r equired
guidance for compliance with Federal requirements for all awardees at the award date and t he
necessary personnel resources to ensure a proper segregation of duties, and management and
approval process of financial transactions and reports.
                                                                                     APPENDIX C


OTHER MATTERS

We also det ermined t hat N EESinc did not hav e w ritten pol icies and pr ocedures on e mployee
timekeeping and labor cost distributions, as well as participant support costs. Even though
NEESinc appears to have established and implemented processes to account for and p roperly
report these costs, these processes were not documented into written policies and procedures
to bet ter en sure e ffective i nternal co ntrols over t he p rocesses.    This condition w as also
identified on N SF’s March 2005 m onitoring si te v isit r eport and t he M ay 2006 T otal B usiness
System R eview r eport on N EESinc performed by N SF of ficials. This is important beca use
without written policy and procedures, established controls, policies and procedures may not be
clearly and ef fectively c ommunicated to and followed by al l levels of e mployees, particularly
when there is employee or management turnover. This problem continued during the course of
the award despite NSF’s efforts and recommendations to NEESinc to develop written policies
and procedures related to this situation. To deter or prevent the same problems from occurring
on new aw ardees, we su ggest that N SF ensu re t hat these aw ardees have adeq uate w ritten
policies and pr ocedures for em ployee t imekeeping, l abor co st di stributions and par ticipant
support costs.
APPENDIX D – EXIT CONFERENCE
                                                                              APPENDIX D


EXIT CONFERENCE


We conducted an exit conference on August 7, 2009 at NEESinc’s office in Davis, California.
We discussed preliminary findings and r ecommendations noted during the audit. Representing
NEESinc were:

           Name                                  Title




Representing the National Science Foundation – Office of Inspector General was:

           Name                          Title

    Billy McCain           Audit Manager


Representing Mayer Hoffman McCann P.C. – Conrad Government Services Division were:

           Name                          Title
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL

             Internet
          www.oig.nsf.gov

            Email Hotline
            oig@nsf.gov

            Telephone
           703-292-7100



             Toll-free
          1-800-428-2189


               Fax
           703-292-9158


                  Mail
      Office of Inspector General
     National Science Foundation
    4201 Wilson Blvd., Suite 1135
          Arlington, VA 22230
